CERTIFICATE OF SERVICE
No.
Ivon Castro,
Petitioner
v.
Dina Simon, Individually and as Deputy
Commissioner, Elizabeth Castro, Correction
Officers’ Benevolent Association, Inc., Steven
Isaacs, Mercedes Maldonado, Koehler & Isaacs
LLP, City of New York,
Respondents.

The undersigned, declares this statement to be
true under the penalties of perjury, pursuant to 28
U.S.C.§ 1746:
That on the 15th day of January 2020, she
served three (3) copies of the Petition for a Writ of
Certiorari and Appendix, in Castro v. Simon, et al.
Upon: Zachary W. Carter
Corporation Counsel
City of New York
Attorney for Respondents:
Dina Simon
City of New York
100 Church Street
New York, New York 10007
by mailing the same in a sealed envelope, with
postage prepaid thereon, in a post-office/official

depository of the U.S. Postal Service within the State
of New York, directed to said defendant’s attorney at
the above indicated address.
Dated: January 15, 2020
New York, New York

Angela Tatum
P.O. Box 714
New York, NY 10026
(347) 286-8142

!

CERTIFICATE OF SERVICE
No.
Ivon Castro,
Petitioner
v.
Dina Simon, Individually and as Deputy
Commissioner, Elizabeth Castro, Correction
Officers’ Benevolent Association, Inc., Steven
Isaacs, Mercedes Maldonado, Koehler & Isaacs
LLP, City of New York,
Respondents.

The undersigned, Petitioner herein, declares
this statement to be true under the penalties of
perjury, pursuant to 28 U.S.C.§ 1746:
That on the 15th day of January 2020, she
served three (3) copies of the Petition for a Writ of
Certiorari and Appendix, in Castro v. Simon, et al.
Upon: Koehler & Isaacs LLP
Attorneys for Respondents:
Correction Officers’ Benevolent Association,
Inc.
Steven Isaacs
Mercedes Maldonado
Koehler & Isaacs LLP
61 Broadway, 25th Floor
New York, New York 10007

by mailing the same in a sealed envelope, with
postage prepaid thereon, in a post-office/official
depository of the U.S. Postal Service within the State
of New York, directed to said defendant’s attorney at
the above indicated address.
Dated: January 15, 2020
New York, New York

Angela Tatum
P.O. Box 714
New York, NY 10026
(347) 286-8142

